               Department of Veterans Affairs
               Office of Inspector General



                   Office of Healthcare Inspections

Report No. 13-00488-26



              Healthcare Inspection 


   Alleged Chemotherapy Delay and 

   Excessive Emergency Department 

            Length of Stay 

    Jesse Brown VA Medical Center 

           Chicago, Illinois 





December 9, 2013

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                     Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL



                                 Executive Summary 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection in response to a complainant’s allegations of a delay in chemotherapy
treatment, excessive length of stay (LOS) in the Emergency Department (ED), and
failure to perform a kidney ultrasound at the Jesse Brown VA Medical Center (the
facility) in Chicago, IL.

We substantiated a delay in chemotherapy treatment, that the patient experienced
excessive LOS in the ED on two occasions while awaiting admission, and that an
inpatient kidney ultrasound was ordered but not performed. However, on both ED visits,
the patient was promptly triaged and treated. We could not substantiate that the patient
suffered any adverse medical outcomes as a result of these delays.

We found that there was no clearly defined process for monitoring oncology clinic
patients awaiting inpatient beds after hours and that there was inconsistent patient
handoff communication between oncology clinic staff and the ED triage nurses.

We also identified problems in the Patient Flow Committee structure, membership, and
communication of patient flow initiatives to the frontline staff.

We recommended that the Facility Director:

       	 Ensure that LOS in the ED is reviewed, and that action plans are
          developed to address excessive LOS, and that action plans are
          implemented and monitored for compliance.

       	 Ensure that the Patient Flow Committee meets as required by local
          policy, reviews membership to ensure inclusion of frontline staff, that
          follow-up reports are submitted, and that identified improvement
          processes are monitored and communicated to all involved staff.

       	 Ensure that action plans addressing the monitoring and handoff
          communication of oncology clinic patients waiting for after-hours
          admission are communicated to involved staff, implemented, and
          monitored for compliance.
Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 7–10 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.


                                                          JOHN D. DAIGH, JR., M.D.
                                                         Assistant Inspector General for 

                                                           Healthcare Inspections



VA Office of Inspector General                                                                 i
                         Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL



                                                   Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection in response to a complainant’s allegations of a delay in chemotherapy
treatment, excessive length of stay (LOS) in the Emergency Department (ED), and
failure to perform a kidney ultrasound at the Jesse Brown VA Medical Center (the
facility) in Chicago, IL. The purpose of the review was to determine if the allegations
had merit.

                                               Background 

The facility is a tertiary care medical center with 210 inpatient beds in Veterans
Integrated Service Network (VISN) 12. The facility provides a broad range of inpatient
and outpatient healthcare services to 58,000 veterans in Chicago and 6 counties in
Northwestern Indiana.

Excessive ED LOS

The facility ED provides initial evaluation and treatment for a broad spectrum of illness,
injuries, and psychiatric disorders 24 hours a day, 7 days a week. The ED also
provides resuscitative therapy and stabilization in life-threatening situations. In FY
2012, the facility temporarily closed beds for renovation of an inpatient unit, leading to
increased LOS in the ED. Patients who present to the ED are admitted, discharged
home, or transferred to other facilities. The Joint Commission considers ED stays
excessive if they exceed 4 hours from the time a decision for hospital admission occurs.
The practice of holding patients beyond this time while waiting for an available bed is
called “boarding” and presents patient safety and quality of care concerns.1

Clinic Admission Process

The clinic physician initiates the admission process by submitting an order in the
Electronic Health Record (EHR) and calling the admissions clerk. The bed control
coordinator checks the Bed Management System and assigns the patient to the bed.
When a bed is available, the bed control coordinator calls the clinic, who in turn notifies
the patient. The patient reports to admissions and is escorted to the bed, completing
the admitting process. If the clinic closes before the bed becomes available, clinic staff
escort the patient to the Admissions/ED/Transportation waiting room and the
admissions clerk notifies the patient when the bed becomes available and escorts the
patient to their room.



1
 Joint Commission LD.04.03.11. VHA recently codified this standard in VHA Directive 1009, Standards for Addressing the
Needs of Patients Held in Temporary Bed Locations, (August 28, 2013); requiring that patients kept in the ED for 4 hours or
more after admission orders are placed must be designated as boarders and ED providers must provide acute emergency care
while the patient is in the ED.


VA Office of Inspector General                                                                                           1
                      Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL




Chemotherapy

Chemotherapy is the use of medication to treat cancer. There are many medications
that can be combined during chemotherapy, which can be administered along with
surgery or radiation treatment.2 Depending on the type and stage of cancer and the
specific medication used, chemotherapy may be given orally or intravenously (into the
patient’s vein) as inpatient or outpatient treatment. Patients may develop side effects
from chemotherapy such as acute kidney injury, hair loss, gastric upset, and weakened
immune system.


                             Scope and Methodology 

We conducted a site visit January 7-9, 2013. Prior to our visit we interviewed the
complainant via telephone. We reviewed the EHR, Emergency Department Integrated
Software (EDIS) facility data, Veterans Health Administration (VHA) directives and
handbooks, Joint Commission guidelines, facility clinical practice guidelines, patient flow
committee meeting minutes, and quality management documents.

While on site we interviewed facility leadership, medicine, primary care and intensive
care service chiefs, pharmacy managers, ED, medicine, and oncology providers,
oncology clinic staff and others involved in the patient’s care. We also interviewed the
patient   advocate      and    admissions      personnel,     and  toured     the   ED,
Admission/ED/Transportation waiting area, and the oncology clinic.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.

                                      Case Summary 

The patient, a man in his early 60’s, had a history of prostate cancer diagnosed in June
2003. In August 2008, he was diagnosed with lymphoma – a cancer that begins in the
lymphocytes of the immune system and presents as a solid tumor3 - and in January
2009 he received chemotherapy at a non-VA facility. Thereafter, the patient sought his
care at the VA facility.



2
  American Cancer Society website, http://www.cancer.org/treatment/treatmentsandsideeffects/index, accessed
August 27, 2013
3
  Cancer Council website, cancer of the lymphatic system. http://www.cancercouncil.com.au/19924/cc-
publications/understanding-ca.ncer-series/understanding-hodgkin-lymphoma/understanding-hodgkins-lymphoma-
the-lymphatic-system/?pp=19924, accessed August 27, 2013




VA Office of Inspector General                                                                           2
                     Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL


There was no evidence of cancer recurrence until the summer of 2012 when an
enlarged groin lymph node was discovered. On September 25, 2012, the site was
biopsied and he was diagnosed with diffuse large B-cell lymphoma. His oncologist told
him that he would start inpatient chemotherapy the following week.

On October 1, in preparation for the patient’s admission, the oncologist submitted an
order in the EHR for chemotherapy. The following morning the oncologist saw the
patient in the clinic, cleared him for admission, and notified the bed clerk that the patient
was awaiting admission. The patient was escorted to the oncology clinic waiting room
to wait for an inpatient bed. When the clinic closed 8 hours later, an oncology nurse
escorted the patient to the Admission/ED/Transportation waiting area, where he waited
for 4 hours before being admitted. According to the patient, while waiting, he began to
feel dizzy and weak. An ED triage nurse spoke with the patient and escorted him back
to the ED and allowed him to rest in a bed. Although not admitted to the ED, he was
allowed to stay there until an admission bed was available. The initiation of his
chemotherapy was delayed until 10:00 a.m. the following morning.

The patient completed his chemotherapy on October 6, and expected to be discharged.
However, he was informed that his treatment required an additional day for intravenous
hydration in order to prevent possible chemotherapy-induced kidney injury. The patient
refused the additional hydration and insisted on leaving the facility against medical
advice. Prior to leaving, he was instructed to drink one liter of water or Gatorade© the
following day, and a follow-up oncology appointment was scheduled for October 9.

The patient returned to the facility, as scheduled, for laboratory testing. That afternoon
the oncologist called the patient and told him to go to the ED for evaluation because the
laboratory tests showed low potassium and possible chemotherapy-induced kidney
injury. The patient reported to the ED and was promptly triaged and treatment was
initiated. He was told he needed to be admitted but there were no beds available at the
facility. The treating physician offered to transfer him to a non-VA facility with available
beds to continue treatment but the patient refused the transfer. The patient continued
treatment overnight in the ED while awaiting admission. In the morning, an ED
physician and an oncologist evaluated the patient and noted that his condition had
improved and he could be discharged. He was discharged with instructions to return to
the facility 3 days later for laboratory testing.

On October 13, the patient reported to the facility for laboratory testing. Later that day,
the oncologist received the test results, which indicated a decrease in kidney function,
called the patient, and instructed him to go to the ED immediately. Upon arriving at the
ED, the patient was promptly triaged and treatment was initiated. Eight hours later he
was admitted to the acute care unit.

The day after admission, the patient was evaluated by a nephrologist who
recommended a kidney ultrasound and a routine order (within 72 hours) was placed.
The following day, while awaiting the ultrasound and a blood transfusion, the patient
requested discharge. The medical resident discussed the pending ultrasound with the
oncologist and received approval to reschedule the test so that the patient could be


VA Office of Inspector General                                                                3
                       Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL


discharged. The resident called radiology clinic to schedule the ultrasound, but was told
it could not be scheduled until 15 days later. The resident then spoke with the patient,
who was very upset, but agreed to stay until the next morning in order to get the
ultrasound completed. The ultrasound was not performed the following morning and the
patient insisted on being discharged. Upon discharge, the patient went to his oncologist
and expressed his dissatisfaction with the admission process, the inpatient experience,
and the failure to obtain the ultrasound.

The following week the patient returned to the facility for repeat laboratory tests and
examination by his oncologist, who noted improved kidney function. The patient
continues to receive his treatment at the facility and is participating in autologous stem
cell transplant.4

                                     Inspection Results 

Issue 1: Treatment Delays

We substantiated the allegation that there was a delay in initiating the patient’s
chemotherapy and that the facility failed to perform the inpatient kidney ultrasound.
However, we could not substantiate that the patient suffered any adverse medical
outcomes as a result.

The October 1 admission was followed by approximately 12 hour wait from the time the
patient was evaluated by the oncologist in the oncology clinic and the time the patient
was admitted. The chemotherapy was delayed until the following day. The kidney
ultrasound was never performed; however, the week after it was ordered the patient
saw his oncologist who noted that the patient’s kidney function had improved.

We further substantiated that the patient had excessive LOS in the ED. On October 9,
the patient remained in the ED overnight. When the decision to admit was made the
physician caring for the patient advised the patient of the lack of inpatient beds and
offered to transfer him to a non-VA facility for care. The patient declined the transfer
and was treated overnight in the ED. He was re-evaluated in the morning and deemed
stable for discharge. On October 13, before being transferred to an inpatient unit, the
patient was held and treated in the ED for 8 hours after the physician made the decision
to admit him.

Issue 2: Patient Flow

We identified opportunities for improvement in the Patient Flow Committee and
communication of patient flow initiatives to the front line staff.


4
 http://www.mayoclinic.com/health/stem-cell-transplant/MY00089. Stem cell transplant is the infusion of healthy
stem cells to help the body make enough healthy white blood cells, red blood cells, or platelets.




VA Office of Inspector General                                                                               4
                     Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL


Facility policy requires that the patient flow committee meet monthly to review diverse
patient flow issues such as ED LOS over 4 hours and long wait times for inpatient beds.
When the committee identifies a problem, the policy directs that a work group is
assembled to review current practices and identify patient flow improvements.

We found that during Fiscal Years 2011 and 2012, the facility Patient Flow Committee
did not meet monthly as required, and when they did meet, meeting minutes reflected
problems in getting project follow-up data from committee members. Frontline staff told
us that they were frequently unaware of the process improvements identified by the
committee for implementation in their areas.

Issue 3: Handoff Communication

In the patient flow committee meeting minutes, issues were identified regarding clinic
patients, including those from oncology, who wait after clinic hours for admission. In
response, the committee developed a new standard of practice that requires oncology
clinic patients waiting after hours admission be escorted by an oncology clinic nurse to
the Admission/ED/Transportation waiting area. The clinic nurse is required to handoff
the patient to the ED triage nurse. Handoff communication from the clinic nurse to the
triage nurse should include any medications the patient may need, and other issues the
triage nurse should be aware of while the patient is in the waiting area. Oncology clinic
nursing staff and ED triage nurses we interviewed told us that the handoff occurred
inconsistently. In addition, the triage nurses we spoke with told us they had not been
included in the development of the new standard of practice.

We toured the Admission/ED/Transportation waiting area at different times during day
and evening shifts and each time there were many patients in the area. The waiting
area is a large open space with limited visibility because of a large pillar in the center of
the room and a partition screening an area for the ED admissions clerk. In addition,
there are cubicles along one wall for the admissions and transportation staff. The triage
area is located near the entrance to the ED. The triage nurses we interviewed told us
that it is very difficult to see all the patients in the room from the triage area. The triage
nurse is also occupied with assessing patients for admission to the ED. While we were
in the room we noted that the triage nurses were busy with ED patients and did not
have time between patients to walk through the waiting area to monitor clinic patients
they could not easily see. As a result, clinic patients waiting for admission might not be
monitored from the time of arrival in the area until admitted to a bed.

                                     Conclusions 

We substantiated allegations of a chemotherapy delay and failure to perform an
inpatient kidney ultrasound. However, we could not substantiate that the patient
suffered any adverse medical outcomes as a result of these delays.

We substantiated that the patient experienced excessive LOS in the ED on two different
occasions.   On both occasions, the patient was triaged promptly and treated


VA Office of Inspector General                                                                5
                     Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL


appropriately. On one occasion, when an extended LOS in the ED was anticipated, the
facility offered to transfer the patient to a non-VA facility however, the patient refused.

We identified opportunities for improvement in the facility patient flow process to
include; frequency of committee meetings, membership, and communication of process
improvements to the frontline staff.

We determined that Oncology clinic staff and ED triage nurses had varying levels of
understanding regarding the standard of practice for how patients are admitted from
ambulatory to inpatient units, which led to inconsistent handoff communication and
failure to monitor those oncology patients in the Admission/ED/Transportation waiting
area.

                                 Recommendations 

1. We recommended that the Facility Director ensure that length of stay in the
emergency department is reviewed, and that action plans are developed to address
excessive length of stay, and that action plans are implemented and monitored for
compliance.

2. We recommended that the Facility Director ensure that the Patient Flow Committee
meets as required by local policy, reviews membership to ensure inclusion of frontline
staff, that follow-up reports are submitted, and that identified improvement processes
are monitored and communicated to all involved staff.

3. We recommended that the Facility Director ensure that action plans addressing the
monitoring and handoff communication of oncology clinic patients waiting for after-hours
admission are communicated to involved staff, implemented, and monitored for
compliance.




VA Office of Inspector General                                                                6
                     Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL
                                                                                    Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum




     Date: September 24, 2013

    From: Director, VA Great Lakes Health Care System (10N12)

 Subject: 	Healthcare Inspection – Alleged Chemotherapy Delay and Excessive
           ED LOS, Jesse Brown VA Medical Center, Chicago, IL

       To: Director, Washington DC Office of Healthcare Inspections (54DC)

              Director, Management Review Service (VHA 10AR MRS OIG
              Hotline)

               1. I have reviewed the draft report and I concur with the
                   Office of Healthcare Inspections recommendations
                   as well as the corrective action plans developed by
                   the Jesse Brown VA Medical Center.

               2. Thank you for the opportunity to review the findings
                  enclosed in this report.


                (original signed by:)

               Jeffrey A. Murawsky, M.D.




VA Office of Inspector General                                                                7
                     Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL
                                                                                    Appendix B
                          Facility Director Comments


               Department of
               Veterans Affairs                                  Memorandum




     Date: September 17, 2013

    From: Acting Director, Jesse Brown VA Medical Center (537/00)

 Subject: 	Healthcare Inspection – Alleged Chemotherapy Delay and Excessive
           ED LOS, Jesse Brown VA Medical Center, Chicago, IL

       To: Director, VA Great Lakes Health Care System (10N12)


           1. I would like to express my appreciation to the Office of
              Inspector (OIG) Health Care team for their professional and
              comprehensive health care review conducted January 7-9,
              2013.

           2. I have reviewed the draft report for the Jesse Brown VA
              Medical Center and action plans are provided for the
              recommendations.

           3. I appreciate the opportunity to submit this response in
              support of continuous improvement in the health care
              services provided to our Veterans



           (original signed by:)

          Judy K. McKee, FACHE




VA Office of Inspector General                                                                8
                     Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL




                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Facility Director ensure that length of
stay in the emergency department is reviewed, and that action plans are developed to
address excessive length of stay, and that action plans are implemented and monitored
for compliance.

Concur

Target date for completion: September 3, 2013

Facility response: Length of stay in the Emergency Department and reasons for LOS
exceeding 6 hours is monitored daily and reviewed monthly at the facility Patient Flow
Committee. Data from FY 13 EDIS report indicates an average of 15 % patients stay
longer than 6 hours. Action plans have been developed to address the excessive length
of stay; the main reason is the unavailability of beds. An analysis of diversion and
utilization data was conducted and demonstrated that there is a need to increase the
number of current telemetry beds. Senior Leadership is currently reviewing a proposal
to increase the number of telemetry beds.

Additionally, the Medical Center’s Transformational Plan of Care (TPOC) identified
Patient Flow as the #1 Value Stream. Since March 2013, two Rapid Process
Improvement Workshops (RPIWs) have been conducted with a third planned for the last
week of September. Each RPIW is working to improve a portion of the patient flow from
ED to discharge from the medical center. Currently there are over 25 tests of change
being processed for improvements. Action plans addressing patient flow initiatives are
tracked at the Patient Flow Committee to assure completion and compliance.

Recommendation 2. We recommended that the Facility Director ensure that the
Patient Flow Committee meets as required by local policy, reviews membership to
ensure inclusion of frontline staff, that follow-up reports are submitted, and that
identified improvement processes are monitored and communicated to all involved staff.

Concur

Target date for completion: September 3, 2013

Facility response: Review of the current membership was completed and front line
staff representatives comprise 60% of the committee membership. During FY 2013 the
Patient Flow Committee met 11/12 months. Patient Flow Committee reports to Quality
Leadership Council quarterly where all action plans are monitored to ensure that
improvement processes are communicated to involved staff and tracked until resolution.


VA Office of Inspector General                                                                9
                     Alleged Chemotherapy Delay, Excessive ED LOS, Jesse Brown VAMC, Chicago, IL



Meeting minutes from the Patient Flow Committee and Quality Leadership Council are
audited to assure the minutes include documentation of actions.

Recommendation 3. We recommended that the Facility Director ensure that the
action plans addressing the monitoring and handoff communication of oncology clinic
patients waiting for after-hours admission are communicated to involved staff,
implemented, and monitored for compliance.

Concur

Target date for completion: December 16, 2013

Facility response: The Admission from Outpatient Clinics to Inpatient Units Medical
Center Memorandum 11-96-16 was revised and signed February 19, 2013 to
include handoff communication requirements for all admissions from outpatient clinics
including oncology patients. The Medical Center Memorandum was discussed and
distributed to all users including service chiefs for distribution. This process is
monitored on a daily basis by the Bed coordinators on the day and evening shifts
through tracking on the Bed Management System (BMS). All patients planned for
admission are added to the BMS admission wait list and can clearly be identified as
clinic admissions, when applicable. Medical record audits will be conducted monthly to
assure that there is appropriate hand off communication documentation between the
outpatient clinics, the inpatient admissions service and the ED triage nurses.




VA Office of Inspector General                                                               10
               Alleged Chemotherapy Delay, Excessive LOS in the ED, Jesse Brown VAMC, Chicago, IL
                                                                                     Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Myra Conway, RN, Team Leader
                         Gail Bozzelli, RN
                         Donna Giroux, RN
                         Alan Mallinger, MD
                         Natalie Sadow, MBA, Program Support Assistant




VA Office of Inspector General                                                                11
 Alleged Delay in Initiation of Chemotherapy, Excessive LOS in the ED, Jesse Brown VAMC, Chicago, IL
                                                                                        Appendix D



                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Great Lakes Health Care System (10N12)
Director, Director, Jesse Brown VA Medical Center (537/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Durbin, Mark Kirk
U.S. House of Representatives: Danny Davis, Mike Quigley

This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                   12
